EXHIBIT K

Case: 2:16-cv-00658-EAS-CMV Doc #: 154 Filed: 12/10/18 Page: 1 of 4 PAGEID #: 6532 (1 of 4)
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Deborah S. Hunt
Clerk

100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Filed: December 10, 2018

Mr. David Terry Ball
Rosenberg & Ball
395 N. Pearl Street
Granville, OH 43023
Ms. Molly R Gwin
Ms. Maribeth Meluch
Isaac Wiles Burkholder & Teetor
Two Miranova Place
Suite 700
Columbus, OH 43215
Mr. Fazeel S. Khan
Haynes, Kessler, Myers & Postalakis,
300 W. Wilson Bridge Road
Suite 100
Worthington, OH 43085

Re: Case No. 18-4132, Cynthia Madej, et al v. Jeff Maiden
Originating Case No. : 2:16-cv-00658
Dear Counsel,
The Court issued the enclosed Order today in this case.
Sincerely yours,
s/Sharday S. Swain
Case Manager
Direct Dial No. 513-564-7027
cc: Mr. Richard W. Nagel
Enclosure

Tel. (513) 564-7000
www.ca6.uscourts.gov

Case: 2:16-cv-00658-EAS-CMV Doc #: 154 Filed: 12/10/18 Page: 2 of 4 PAGEID #: 6533 (2 of 4)
No. 18-4132
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

CYNTHIA MADEJ; ROBERT MADEJ,
Plaintiffs-Appellants,
v.
JEFF MAIDEN, Athens County Engineer,
Defendant-Appellee.

)
)
)
)
)
)
)
)
)

),/('

'HF
'(%25$+6+817&OHUN

ORDER

Before: SILER, ROGERS, and COOK, Circuit Judges.

Plaintiffs appeal the summary judgment for defendant in this action asserting claims under
the Americans With Disabilities Act (“ADA”), the Fair Housing Amendments Act (“FHAA”), and
state law. They move for the reinstatement pending appeal of a preliminary injunction which
prevented the chip and seal paving of Dutch Creek Road in Athens County, Ohio, within a onemile radius of their home. Defendant opposes the motion for injunctive relief pending appeal.
In district court, plaintiffs alleged that Cynthia Madej suffers from numerous medical
conditions, including chronic fatigue, fibromyalgia, and multiple chemical sensitivity. Due to her
extreme sensitivity to asphalt and other petrochemicals, plaintiffs brought this action to prevent
asphalt paving of Dutch Creek Road. Plaintiffs sought injunctive and declaratory relief, damages,
and reasonable accommodations under the ADA and the FHAA. The district court found that the
causation opinions of plaintiffs’ medical experts were not reliable and excluded them under
Federal Rule of Evidence 702 and Daubert v. Merrell Dow Pharm., Inc., 509 U.S. 579 (1993).
The district court then granted summary judgment for defendant on all of plaintiffs’ claims.

Case: 2:16-cv-00658-EAS-CMV Doc #: 154 Filed: 12/10/18 Page: 3 of 4 PAGEID #: 6534 (3 of 4)
No. 18-4132
-2The granting of injunctive relief pending appeal “is not a matter of right, even if irreparable
injury might otherwise result.” Virginian Ry. Co. v. United States, 272 U.S. 658, 672 (1926).
Plaintiffs must demonstrate “that the circumstances justify” the court’s exercise of discretion to
grant injunctive relief pending review. Nken v. Holder, 556 U.S. 418, 433–34 (2009). Four factors
guide our decision: (1) whether plaintiffs have a likelihood of success on the merits; (2) whether
they will suffer irreparable harm in the absence of injunctive relief; (3) whether the requested
injunctive relief will substantially injure other interested parties; and (4) where the public interest
lies. Id. at 434. The first two factors, likelihood of success and irreparable harm, “are the most
critical.” Id. The four factors “are not prerequisites that must be met, but are interrelated
considerations that must be balanced together.” Serv. Emps. Int’l Union Local 1 v. Husted, 698
F.3d 341, 343 (6th Cir. 2012) (citation omitted).
In asserting they have a strong likelihood of success on the merits, plaintiffs argue that the
district court erroneously applied the causation standard applicable to toxic tort cases to their
claims for accommodations under the ADA and the FHAA. But plaintiffs have not shown a strong
likelihood that, in the absence of expert testimony, they can demonstrate that the requested
accommodation for multiple chemical sensitivity is warranted. See Wroncy v. Oregon Dep’t of
Transp., 94 F. App’x 559, 560 (9th Cir. 2004); Davis v. Echo Valley Condominium Assoc., ___ F.
Supp. 3d ___, 2018 WL 5830953, at *9 (E.D. Mich. Nov. 7, 2018); Matarese v. Archstone
Pentagon City, 761 F. Supp. 2d 346, 365 (E.D. Va. 2011).
Plaintiffs believe that Cynthia will suffer significant irreparable harm in the absence of
injunctive relief preventing the chip and seal paving of Dutch Creek Road. Their claims of future
harm are somewhat speculative. In addition, defendant has agreed to notify plaintiffs thirty days
prior to any scheduled paving, thus giving them an opportunity to mitigate the potential harm to

Case: 2:16-cv-00658-EAS-CMV Doc #: 154 Filed: 12/10/18 Page: 4 of 4 PAGEID #: 6535 (4 of 4)
No. 18-4132
-3Cynthia. The district court found that Dutch Creek Road needs repairs, and defendant argues that
delaying the repairs will harm others traveling on the road. On balance, we conclude that plaintiffs
have not justified the need for the reinstatement of the preliminary injunction pending their appeal.
The motion for an injunction pending appeal is DENIED.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

